HHS/OIG, Audit -"Review of Region 19 Education Service Center's Compensation Practices for Executives and Teachers,"(A-06-04-00029)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Region 19 Education Service Center's Compensation Practices for Executives and Teachers," (A-06-04-00029)
September 17, 2004
Complete Text of Report is available in PDF format (247 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Region 19 Education Service Centers (Region 19) compensation practices for five key executives and teachers were reasonable and consistent with Federal requirements and guidelines for grant years 2000, 2001, and 2002.  We found that Region 19s compensation practices did not meet Federal requirements and guidelines.  While compensation for Region 19s key executives appeared reasonable based on our comparisons, teachers appeared to be underpaid.  In addition, compensation charges for three executives were inequitably allocated to Head Start.  We recommended that Region 19 consider bringing its teacher wages in line with wages paid at local preschools or the minimum amount required for public school classroom teachers with the State of Texas as recommended by the Administration for Children and Families (ACF); ensure quality improvement funds are spent in accordance with ACF Head Start program instructions; and establish a time and effort reporting system that complies with OMB Circular A-87, Attachment B, §11h to ensure that the salaries of employees with responsibilities over more than one program are properly allocated to the various programs.  Region 19 concurred with our findings and recommendations.